                 OFFICE OF
                 INSPECTOR
                 GENERAL
                 UNITED STATES POSTAL SERVICE




 Revenue Performance to Plan for
   Fiscal Years 2012 and 2013




                                          February 27, 2014

Prepared by Office of Audit
            Report Number: MS-WP-14-001
February 27, 2014

MEMORANDUM FOR:           MEGAN J. BRENNAN
                          CHIEF OPERATING OFFICER AND
                           EXECUTIVE VICE PRESIDENT

                          NAGISA M. MANABE
                          CHIEF MARKETING AND SALES OFFICER AND
                           EXECUTIVE VICE PRESIDENT




FROM:
                          Janet M. Sorensen
                          Acting Deputy Assistant Inspector General
                           for Revenue and Performance

SUBJECT:                  Revenue Performance to Plan for Fiscal Years 2012 and
                          2013 (Report Number MS-WP-14-001)

Attached are the results of our review of the U.S. Postal Service's
Revenue Performance to Plan for Fiscal Years (FY) 2012 and 2013 (Project
Number 14RO002MS000). The Postal Service had annual operating revenue plans of
$63.8 billion and $64.74 billion during FYs 2012 and 2013, respectively. Actual
operating revenues were $65.21 billion and $65.89 billion in FYs 2012 and 2013,
respectively. This white paper discusses how the Postal Service performed on its
revenue plans at the national, area, and district levels.

If you have any questions or need additional information, please contact Joshua M.
Bartzen, acting director, Sales and Marketing, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Revenue Performance to Plan for                                                           MS-WP-14-001
 Fiscal Years 2012 and 2013



               Revenue Performance to Plan for Fiscal Years 2012 and 2013

Introduction

The U.S. Postal Service generated more than $65 billion in operating revenue1 during
both fiscal years (FY) 2012 and 2013. Revenue was mainly derived from two key
channels: (1) commercial2—71 percent of operating revenue and (2) retail3—28 percent
of operating revenue.4 The Postal Service tracks revenue across a host of categories
within these revenue channels, including specific products, such as First-Class™ Mail;
services, such as Post Office Box rental; and locations, such as walk-in-revenue at retail
counters.

This paper analyzes the Postal Service’s revenue performance for FYs 2012 and 2013.
The Postal Service had $65.89 billion in operating revenue in FY 2013, which exceeded
its plan by about $1.2 billion. Most notably, the Postal Service exceeded its commercial
revenue plan by about $1 billion. These results followed its FY 2012 performance, in
which its operating revenue of $65.2 billion exceeded its plan by about $1.4 billion,
mostly due to its retail revenue exceeding plan by about $1.4 billion. We are conducting
two audits expected to be issued in spring 2014, which will provide additional details
related to the Postal Service's revenue performance. We will be performing a detailed
assessment of the Postal Service’s revenue and cost forecasting models later in 2014.

The Postal Service has a detailed process for developing its revenue plan for the
upcoming fiscal year and distributing the plan across various channels and
organizational levels, which include components in headquarters, areas, and districts.
To start the revenue planning process, the Postal Service’s Revenue and Volume
Forecast group collects the most recent quarter’s actual revenue and volumes from the
Statistical Program group5 and updates the volume projection model6 for the upcoming
year. The model is used to estimate mail volume according to mail class.7 These
volumes are then multiplied by expected average revenues for each mail product to
determine revenue projections for the upcoming year. Managers in the Finance

1
  Operating revenue is derived from sources related to everyday business operations, and represents the total of
retail, commercial, and other income.
2
  Commercial revenue is revenue generated from sales to business mailers. The major components of commercial
revenue are First-Class Mail, Standard Mail, and Customer Meters.
3
  Retail revenue is revenue generated primarily from sales made at retail units and facilities. The major components
of retail revenue are Postage Meters and Validation, Stamp Sales, Post Office Box Fees, Consignment Sales, and
PC Postage.
4
  The “other” 1 percent of operating revenue was from miscellaneous field revenue, other international revenue, gains
on sales of plant property and equipment, and appropriations.
5
  The Statistical Program group provides statistically reliable, accurate, and timely estimates of revenue, volume,
cost, and transit time for domestic and international mail.
6
  The volume projection model is an econometric model, which uses economic indicators such as, retail sales,
employment, investment, postal prices, and consumer price index.
7
  Examples of mail class are First-Class Mail, Priority Mail, Priority Mail Express, Standard Mail, and Package
Service.
                                                             1
Revenue Performance to Plan for                                                              MS-WP-14-001
 Fiscal Years 2012 and 2013



Department then present these projections to headquarters product managers 8 for
review and discussion.

The Finance Department then takes the resulting revenue projections and incorporates
them into the Integrated Financial Plan (IFP),9 which is forwarded to the Executive
Leadership Team10 (ELT) for review and approval. The ELT-approved plan is then
presented to the U.S. Postal Service Board of Governors for review and approval.
During September, while the IFP is in the preparation and approval process, the
revenue plans (with specific targets to various revenue channels and organizational
levels) are distributed to each area. Managers in each area review these revenue plans
and discuss them with various managers throughout the organization (for example,
district, sales, marketing, and headquarters). The revenue plans are subsequently
distributed to the field through the Financial Performance Report (FPR), located within
the Accounting Data Mart. The plans included in the FPR are adjusted, if necessary,
based on the final IFP approved by the Board of Governors.

Monitoring of revenue performance is a multi-tiered process that is performed at various
levels within the Postal Service, primarily through the FPR. Field budget personnel at
various levels of the organization (including district, area, and headquarters) perform
budget evaluations of their respective offices to determine whether a variance to budget
is evident. If an unusual or irregular item is discovered, budget personnel will contact
the respective unit personnel to determine the nature of the item. Area managers must
submit field variance reports to Corporate Accounting with explanations for any
variance, plus or minus, that is greater than $1 million. Corporate Accounting reviews
the reports and follows up on any discrepancy or unusual item with the respective area
office.

Table 1 summarizes the actual revenue performance to plan by postal organizational
level for FYs 2012 and 2013.




8
  Headquarters product managers include the managers of Retail, Commercial, and Marketing.
9
  The IFP is an executive summary document that includes the operating plan, capital investment plan, and financing
plan for the fiscal year. The IFP provides postal management and the Board of Governors with a basis for assessing
the Postal Service’s estimated business needs and results. It allows them to continually monitor, evaluate, and make
decisions on issues relating to the Postal Service’s financial and operational conditions throughout the fiscal year.
10
   The Executive Leadership Team consists of Postal Service senior executives: the postmaster general (PMG),
deputy PMG, chief operating officer, chief information officer, chief financial officer, general counsel, chief marketing
and sales officer, and chief human resources officer.


                                                            2
Revenue Performance to Plan for                                              MS-WP-14-001
 Fiscal Years 2012 and 2013



          Table 1. Summary of Postal Service Revenue Performance to Plan
                                FYs 2012 and 2013

                              Postal             Revenue Performance Compared to Plan
          Revenue
                           Organizational
          Channel
                               Level                   FY 2012                FY 2013
                                                Exceeded plan by       Exceeded plan by
                          Nationwide
                                                about $1.4 billion     about $1.2 billion
       Operating                                All 7 areas exceeded   All 7 areas exceeded
                          Area
       revenue                                  plan                   plan
                                                53 of 67 districts     42 of 67 districts
                          District
                                                exceeded plan          exceeded plan
                                                Below plan by about    Exceeded plan by
                          Nationwide
                                                $150 million           about $1.0 billion
       Commercial                               4 of 7 areas           All 7 areas exceeded
                          Area
       revenue                                  exceeded plan          plan
                                                35 of 67 districts     43 of 67 districts
                          District
                                                exceeded plan          exceeded plan
                                                Exceeded plan by       Exceeded plan by
                          Nationwide
                                                about $1.4 billion     about $80 million
                                                All 7 areas exceeded   4 of 7 areas
       Retail revenue     Area
                                                plan                   exceeded plan
                                                All 67 districts       32 of 67 districts
                          District
                                                exceeded plan          exceeded plan
       Source: FPR data from the Accounting Data Mart.

Analysis of Postal Service Revenue Performance

The Postal Service exceeded its revenue plans in FYs 2012 and 2013 across most
channels and organizational levels. The following sections provide detailed information
on the Postal Service’s revenue performance to plan, including operating revenue,
commercial revenue, and retail revenue, and other information related to the revenue
plans themselves. We are conducting two audits expected to be issued in spring 2014,
which will provide additional details related to the Postal Service's revenue
performance. We are performing a detailed assessment of the Postal Service’s revenue
and cost forecasting models later in 2014.

Operating Revenue

The Postal Service’s operating revenue is derived from sources related to everyday
business operations and represents the total of retail, commercial, and other income.
Operating revenue was above plan in FYs 2012 and 2013. See Figure 1.




                                                     3
Revenue Performance to Plan for                                    MS-WP-14-001
 Fiscal Years 2012 and 2013



       Figure 1. Operating Revenue Performance to Plan, FYs 2012 and 2013
                                   (in billions)




               Source: FPR data from the Accounting Data Mart.

Other key information about the operating revenue plan and performance include:

   The actual revenue generated during FY 2012 ($65.21 billion) was higher than plan
    revenue ($64.74 billion) for FY 2013.

   All seven of the Postal Service areas exceeded their revenue plans in FYs 2012 and
    2013. See Appendix A for additional details regarding each area’s operating revenue
    plan performance.

   Forty-two of the 67 Postal Service districts (63 percent) exceeded their revenue
    plans in FY 2013, while 53 (79 percent) exceeded their revenue plans in FY 2012.
    See Appendix B for additional details regarding each district’s operating revenue
    plan performance.

Commercial Revenue

The Postal Service generates commercial revenue from sales to business mailers. The
major components of commercial revenue are First-Class Mail, Standard Mail, and
Customer Meters. Nationwide commercial revenue was $150 million below plan in
FY 2012 and about $1 billion above plan in FY 2013. See Figure 2.




                                                    4
Revenue Performance to Plan for                                      MS-WP-14-001
 Fiscal Years 2012 and 2013



      Figure 2. Commercial Revenue Performance to Plan, FYs 2012 and 2013
                                  (in billions)




             Source: FPR data from the Accounting Data Mart.

Other key information regarding the commercial revenue plan and performance include:

   The actual revenue generated during FY 2012 ($46.39 billion) was higher than plan
    revenue ($45.50 billion) for FY 2013.

   All seven of the Postal Service areas exceeded their revenue plans in FY 2013. This
    was an improvement from FY 2012, when four of the seven areas exceeded their
    revenue plans. See Appendix C for additional details regarding each area’s FY 2013
    commercial revenue plan performance.

   Forty-three of the 67 Postal Service districts (64 percent) exceeded their revenue
    plans in FY 2013. This was an improvement from FY 2012, when 35 of 67 districts
    (52 percent) exceeded their revenue plans. See Table 2 for details on the top and
    bottom five performing districts for FY 2013. See Appendix D for additional details
    regarding each district’s FY 2013 commercial revenue plan performance.




                                                     5
Revenue Performance to Plan for                                             MS-WP-14-001
 Fiscal Years 2012 and 2013



            Table 2. Top and Bottom Five Districts Based on Commercial Revenue
                         Performance to Plan in FY 2013 (in millions)

                                                                               Difference
                                                    Plan         Actual
 Rank                    District                                            Between Actual
                                                  Revenue       Revenue
                                                                                and Plan
      1   NORTHLAND                               $1,894.48     $2,088.18                  $193.70
      2   CENTRAL PENNSYLVANIA                    $1,799.61     $1,969.21                  $169.60
      3   CENTRAL ILLINOIS                        $2,384.44     $2,545.76                  $161.32
      4   LAKELAND                                $3,258.12     $3,375.51                  $117.38
      5   HAWKEYE                                   $830.26       $911.84                   $81.58

     63 WESTERN NEW YORK                              $318.56     $278.50              ($40.06)
     64 SOUTH JERSEY                                  $870.29     $828.47              ($41.82)
     65 KENTUCKIANA                                   $671.55     $625.24              ($46.32)
        PHILADELPHIA
     66 METROPOLITAN                              $1,077.87     $1,024.07              ($53.80)
     67 LOS ANGELES                                 $759.54       $695.20              ($64.34)
Source: FPR data from the Accounting Data Mart.

Retail Revenue

The Postal Service generates retail revenue primarily from sales at retail units and
online commerce. The major components of retail revenue are Postage Meters and
Validation, Stamp Sales, Post Office Box Fees, Consignment Sales, and PC Postage.
The Postal Service’s nationwide retail revenue was above plan in FYs 2012 and 2013.
See Figure 3.




                                                  6
Revenue Performance to Plan for                                      MS-WP-14-001
 Fiscal Years 2012 and 2013




          Figure 3. Retail Revenue Performance to Plan, FYs 2012 and 2013
                                     (in billions)




             Source: FPR data from the Accounting Data Mart.

Other key information about the retail revenue plan and performance include:

   Planned revenue increased by nearly 12 percent between FYs 2012 and 2013.

   Four of the seven Postal Service areas exceeded their revenue plans in FY 2013. In
    comparison, all seven areas exceeded their revenue plans in FY 2012. See
    Appendix E for additional details regarding each area’s FY 2013 retail revenue plan
    performance.

   Thirty-two of the 67 Postal Service districts (48 percent) exceeded their revenue
    plans in FY 2013. In comparison, all 67 districts exceeded their revenue plans in
    FY 2012. See Table 3 for details on the top and bottom five performing districts for
    FY 2013. See Appendix F for additional details regarding each district’s FY 2013
    retail revenue plan performance.




                                                     7
Revenue Performance to Plan for                                           MS-WP-14-001
 Fiscal Years 2012 and 2013



  Table 3. Top and Bottom Five Districts Based on Retail Revenue Performance
                        to Plan in FY 2013 (in millions)

                                                                            Difference
                                                    Plan      Actual      Between Actual
   Rank             District                      Revenue    Revenue         and Plan
       1    SALT LAKE CITY                           $349.85 $395.84               $45.99
       2    TRIBORO                                  $276.61 $320.48               $43.87
       3    SANTA ANA                                $474.82 $502.94               $28.12
       4    LOS ANGELES                              $348.73 $366.99               $18.27
       5    SAN FRANCISCO                            $245.64 $260.83               $15.20

       63   GATEWAY                                   $306.13   $300.44              ($5.69)
       64   GREENSBORO                                $255.33   $249.25              ($6.08)
       65   GREATER INDIANA                           $300.64   $294.39              ($6.25)
       66   APPALACHIAN                               $175.73   $169.25              ($6.48)
       67   LAKELAND                                  $473.83   $463.46             ($10.36)
Source: FPR data from the Accounting Data Mart.

Concluding Observations

The Postal Service exceeded its revenue plans in FY 2013 across most channels
and organizational levels. Most notably, the Postal Service exceeded its national
operating revenue plan by $1.2 billion that year ($65.9 billion actual revenue compared
to a $64.7 billion plan). While we consider these results encouraging, the revenue plan
for FY 2013 was below actual revenue generated during FY 2012. Going forward, the
Postal Service’s challenging financial outlook will continue to necessitate an aggressive
revenue strategy—both in terms of revenue plan and actual performance.




                                                  8
   Revenue Performance to Plan for                                                    MS-WP-14-001
    Fiscal Years 2012 and 2013



        Appendix A: Area Operating Revenue Performance, Fiscal Years 2012 and 2013
                                       (in billions)11

                                           FY 2012                                     FY 2013
                                                        Difference                               Difference
                                                         Between                                  Between
                            Plan          Actual        Actual and           Plan      Actual    Actual and
         Area             Revenue        Revenue           Plan            Revenue    Revenue       Plan
WESTERN                       $10.71         $11.12             $0.41        $11.06     $11.54         $0.47
GREAT LAKES                   $11.26         $11.42             $0.16        $11.37     $11.70         $0.33
SOUTHERN                      $10.07         $10.32             $0.26        $10.29     $10.40         $0.10
PACIFIC                        $6.41          $6.58             $0.17         $6.58      $6.68         $0.09
CAPITAL METRO                  $5.95          $6.12             $0.17         $5.93      $5.99         $0.06
EASTERN                       $11.22         $11.25             $0.03        $11.20     $11.23         $0.03
NORTHEAST                      $7.61          $7.66             $0.06         $7.69      $7.71         $0.02
Source: FPR data from the Accounting Data Mart.




   11
        Ranked in descending order based on FY 2013 performance to plan.


                                                           9
    Revenue Performance to Plan for                                                      MS-WP-14-001
     Fiscal Years 2012 and 2013



    Appendix B: District Operating Revenue Performance, Fiscal Years 2012 and 2013
                                     (in millions)12

                                                FY 2012                           FY 2013
                                                             Difference                   Difference
                                                              Between                      Between
                                  Plan          Actual       Actual and   Plan   Actual   Actual and
          District              Revenue        Revenue          Plan    Revenue Revenue      Plan
NORTHLAND                        $2,240.15     $2,320.49            $80.34   $2,276.15    $2,472.07     $195.92
CENTRAL
                                 $2,062.14     $2,153.05            $90.91   $2,109.95    $2,280.67     $170.72
PENNSYLVANIA
CENTRAL ILLINOIS                 $2,583.47     $2,723.77           $140.30   $2,689.95    $2,849.05     $159.10
LAKELAND                         $3,873.66     $3,723.18         ($150.47)   $3,732.99    $3,839.83     $106.83
SALT LAKE CITY                    $938.12       $967.08             $28.97    $979.57     $1,085.82     $106.25
DALLAS                           $1,867.86     $1,896.07            $28.21   $1,864.18    $1,947.06      $82.89
HAWKEYE                          $1,019.22     $1,042.56            $23.34   $1,025.26    $1,107.58      $82.32
GREATER INDIANA                  $1,234.19     $1,311.97            $77.78   $1,313.22    $1,371.34      $58.12
SACRAMENTO                       $1,236.56     $1,303.65            $67.09   $1,312.38    $1,366.99      $54.61
CHICAGO                           $612.02       $618.21              $6.20    $608.82      $658.72       $49.90
SAN DIEGO                         $734.45       $800.03             $65.58    $803.48      $844.55       $41.07
MID-CAROLINAS                     $687.29       $759.83             $72.54    $752.90      $792.32       $39.43
ARIZONA                          $1,051.28     $1,101.17            $49.89   $1,104.17    $1,141.74      $37.57
CINCINNATI                       $2,005.58     $1,974.54          ($31.04)   $1,950.93    $1,986.71      $35.78
SANTA ANA                        $1,220.77     $1,270.45            $49.68   $1,317.21    $1,351.27      $34.06
TRIBORO                           $501.83       $528.36             $26.53    $540.92      $573.67       $32.75
GULF ATLANTIC                    $1,081.70     $1,099.54            $17.84   $1,118.75    $1,151.29      $32.54
PORTLAND                          $710.25       $733.56             $23.32    $741.33      $772.67       $31.34
LONG ISLAND                      $1,069.04     $1,039.60          ($29.44)   $1,030.15    $1,061.00      $30.85
SOUTH FLORIDA                     $982.55      $1,084.61           $102.06   $1,078.57    $1,107.42      $28.85
ATLANTA                          $1,513.87     $1,535.82            $21.94   $1,359.55    $1,385.18      $25.63
NORTHERN OHIO                     $857.67       $905.80             $48.13    $906.86      $930.84       $23.98
DAKOTAS                           $488.31       $519.07             $30.76    $517.06      $539.81       $22.74
FORT WORTH                        $490.95       $527.91             $36.96    $532.77      $555.33       $22.55
SUNCOAST                         $1,478.86     $1,537.67            $58.81   $1,528.13    $1,549.63      $21.51
NORTHERN NEW
                                 $1,088.44     $1,149.26            $60.82   $1,137.45    $1,157.77      $20.32
JERSEY
SIERRA COASTAL                     $642.83       $668.24            $25.41    $676.41       $692.38      $15.97

    12
         Ranked in descending order based on FY 2013 performance to plan.


                                                            10
   Revenue Performance to Plan for                                             MS-WP-14-001
    Fiscal Years 2012 and 2013



                                       FY 2012                                    FY 2013
                                                   Difference                                 Difference
                                                    Between                                    Between
                            Plan        Actual     Actual and   Plan   Actual                 Actual and
     District             Revenue      Revenue        Plan    Revenue Revenue                    Plan
ALABAMA                      $563.27    $584.79          $21.53     $583.58       $597.56          $13.97
COLORADO/WYOMING             $726.66    $767.56          $40.90     $769.79       $782.50          $12.71
NORTHERN NEW
                             $731.27    $746.82          $15.55     $755.65       $767.01          $11.36
ENGLAND
RICHMOND                     $583.34    $586.84            $3.49    $587.31       $597.84          $10.53
MID-AMERICA                  $744.21    $788.31           $44.09    $788.61       $797.10           $8.49
TENNESSEE                    $842.39    $849.92            $7.53    $861.84       $869.29           $7.44
SEATTLE                      $919.90    $930.71           $10.82    $937.28       $942.56           $5.28
MISSISSIPPI                  $288.57    $268.98         ($19.59)    $270.01       $275.24           $5.23
GREATER MICHIGAN             $578.21    $614.19           $35.99    $613.71       $618.86           $5.16
ALBANY                       $636.78    $660.99           $24.21    $668.49       $673.01           $4.53
ALASKA                       $147.72    $151.45            $3.73    $151.84       $154.80           $2.96
LOUISIANA                    $425.86    $435.33            $9.47    $438.03       $440.34           $2.31
BALTIMORE                    $713.24    $712.76          ($0.48)    $705.99       $707.92           $1.93
WESTERN
                             $718.98    $724.26           $5.28     $727.13       $728.47           $1.34
PENNSYLVANIA
CARIBBEAN                   $178.54     $179.76           $1.22     $180.69      $180.70             $0.01
HONOLULU                    $189.14     $202.22          $13.08     $207.22      $206.24           ($0.98)
SAN FRANCISCO               $468.52     $472.01           $3.49     $455.02      $453.53           ($1.50)
NORTHERN VIRGINIA           $520.46     $552.23          $31.77     $550.43      $548.14           ($2.28)
CENTRAL PLAINS             $1,319.54   $1,363.10         $43.56    $1,334.15    $1,331.47          ($2.68)
BAY-VALLEY                  $669.86     $680.08          $10.23     $686.82      $683.16           ($3.65)
GREATER SOUTH
                             $693.09    $768.49          $75.40     $757.74       $752.78          ($4.96)
CAROLINA
GREENSBORO                   $708.81    $727.32           $18.51    $735.61       $730.49          ($5.12)
WESTCHESTER                  $273.66    $287.09           $13.43    $292.30       $285.53          ($6.78)
CAPITAL                      $525.39    $474.15         ($51.23)    $480.19       $470.86          ($9.33)
OKLAHOMA                     $683.36    $699.99           $16.63    $694.79       $685.28          ($9.51)
CONNECTICUT
                           $1,560.32   $1,518.88        ($41.44)   $1,517.90    $1,504.21         ($13.70)
VALLEY
DETROIT                    $1,093.71   $1,080.91        ($12.80)   $1,074.57    $1,057.94         ($16.63)
NEW YORK                    $493.68     $512.17           $18.49    $519.21      $501.95          ($17.26)
APPALACHIAN                 $760.90     $750.05         ($10.85)    $751.84      $729.02          ($22.82)
ARKANSAS                    $405.51     $396.15          ($9.36)    $363.29      $334.49          ($28.80)


                                                   11
       Revenue Performance to Plan for                                                     MS-WP-14-001
        Fiscal Years 2012 and 2013



                                                  FY 2012                                     FY 2013
                                                              Difference                                  Difference
                                                               Between                                     Between
                                   Plan            Actual     Actual and   Plan   Actual                  Actual and
          District               Revenue          Revenue        Plan    Revenue Revenue                     Plan
 NEVADA-SIERRA                    $408.12          $437.69            $29.57    $439.17      $410.35          ($28.81)
 HOUSTON                          $822.41          $832.08             $9.67    $831.03      $801.82          ($29.22)
 GATEWAY                         $1,280.20        $1,346.53           $66.33   $1,334.67    $1,304.69         ($29.98)
 GREATER BOSTON                  $1,025.20         $996.65          ($28.55)    $999.78      $965.73          ($34.05)
 RIO GRANDE                       $976.30          $960.03          ($16.28)    $988.61      $948.74          ($39.87)
 WESTERN NEW YORK                 $488.14          $501.53            $13.39    $505.14      $463.99          ($41.15)
 SOUTH JERSEY                    $1,280.16        $1,152.90        ($127.27)   $1,161.13    $1,117.68         ($43.45)
 KENTUCKIANA                      $883.53          $890.53             $7.00    $901.21      $857.59          ($43.62)
 LOS ANGELES                     $1,231.59        $1,174.54         ($57.05)   $1,109.34    $1,063.52         ($45.82)
 PHILADELPHIA
                                 $1,319.27        $1,344.35          $25.07    $1,324.21    $1,266.93         ($57.28)
 METROPOLITAN
Source: FPR data from the Accounting Data Mart.




                                                              12
Revenue Performance to Plan for                                                  MS-WP-14-001
 Fiscal Years 2012 and 2013



          Appendix C: Area Commercial Revenue Performance, Fiscal Year 2013
                                   (in billions)13

                                                               FY 2013
                                                                          Difference
                                             Plan          Actual       Between Actual
                           Area            Revenue        Revenue          and Plan
                   WESTERN                       $7.64          $8.04            $0.40
                   GREAT LAKES                   $9.30          $9.65            $0.36
                   SOUTHERN                      $6.92          $7.01            $0.09
                   CAPITAL METRO                 $4.10          $4.17            $0.06
                   EASTERN                       $8.50          $8.56            $0.05
                   PACIFIC                       $4.00          $4.00            $0.00
                   NORTHEAST                     $5.03          $5.03            $0.00
                   Source: FPR data from the Accounting Data Mart.




13
     Ranked in descending order based on FY 2013 performance to plan.


                                                         13
Revenue Performance to Plan for                                                       MS-WP-14-001
 Fiscal Years 2012 and 2013



        Appendix D: District Commercial Revenue Performance, Fiscal Year 2013
                                   (in millions)14

                                                                        FY 2013
                                                                                       Difference
                                                                                        Between
                                                   Plan                  Actual        Actual and
                         District                Revenue                Revenue           Plan
               NORTHLAND                             $1,894.48            $2,088.18         $193.70
               CENTRAL
                                                     $1,799.61            $1,969.21         $169.60
               PENNSYLVANIA
               CENTRAL ILLINOIS                      $2,384.44            $2,545.76         $161.32
               LAKELAND                              $3,258.12            $3,375.51         $117.38
               HAWKEYE                                $830.26              $911.84           $81.58
               DALLAS                                $1,584.95            $1,662.17          $77.22
               GREATER INDIANA                       $1,012.01            $1,076.57          $64.56
               SALT LAKE CITY                         $629.27              $689.54           $60.27
               SACRAMENTO                            $1,022.33            $1,073.83          $51.50
               CHICAGO                                $492.77              $543.84           $51.07
               MID-CAROLINAS                          $495.13              $535.68           $40.54
               CINCINNATI                            $1,620.39            $1,658.99          $38.60
               GULF ATLANTIC                          $780.02              $811.70           $31.68
               LONG ISLAND                            $813.76              $845.16           $31.40
               ARIZONA                                $650.18              $681.56           $31.39
               SOUTH FLORIDA                          $644.13              $673.96           $29.83
               PORTLAND                               $414.62              $444.10           $29.48
               NORTHERN OHIO                          $571.97              $600.74           $28.76
               SAN DIEGO                              $437.11              $465.13           $28.02
               FORT WORTH                             $321.04              $343.13           $22.09
               DAKOTAS                                $312.66              $334.04           $21.38
               ATLANTA                               $1,022.84            $1,043.66          $20.82
               NORTHERN NEW
                                                       $765.97             $786.14           $20.17
               JERSEY
               ALABAMA                                 $368.91             $386.60           $17.69
               NORTHERN NEW
                                                       $491.01             $503.60           $12.59
               ENGLAND
               RICHMOND                                $374.25             $386.19           $11.94


14
     Ranked in descending order based on FY 2013 performance to plan.


                                                        14
Revenue Performance to Plan for                               MS-WP-14-001
 Fiscal Years 2012 and 2013



                                                FY 2013
                                                               Difference
                                                                Between
                                    Plan         Actual        Actual and
                    District      Revenue       Revenue           Plan
            SUNCOAST                 $932.28       $944.18           $11.90
            TENNESSEE                $533.06       $543.40           $10.34
            COLORADO/WYOMING         $397.85       $407.54            $9.68
            ALBANY                   $470.51       $477.50            $6.99
            MISSISSIPPI              $145.68       $152.41            $6.73
            GREATER MICHIGAN         $354.16       $360.67            $6.51
            WESTERN
                                     $464.48       $470.74            $6.26
            PENNSYLVANIA
            SANTA ANA                $841.68       $847.92             $6.24
            MID-AMERICA              $549.55       $554.84             $5.29
            BALTIMORE                $499.04       $503.65             $4.60
            SIERRA COASTAL           $287.24       $290.77             $3.53
            LOUISIANA                $246.82       $249.30             $2.48
            CARIBBEAN                  $88.49        $90.86            $2.37
            ALASKA                     $82.71        $84.78            $2.06
            GREENSBORO               $479.45       $480.34             $0.89
            HONOLULU                   $78.52        $79.13            $0.62
            NORTHERN VIRGINIA        $361.90       $362.40             $0.50
            WESTCHESTER              $122.28       $120.67           ($1.61)
            SEATTLE                  $502.99       $500.26           ($2.74)
            CENTRAL PLAINS          $1,104.46     $1,100.36          ($4.10)
            GREATER SOUTH
                                     $561.96       $555.51           ($6.45)
            CAROLINA
            BAY-VALLEY               $361.35       $354.28          ($7.07)
            CAPITAL                  $306.08       $298.03          ($8.05)
            TRIBORO                  $261.76       $249.53         ($12.23)
            OKLAHOMA                 $498.52       $485.62         ($12.90)
            NEW YORK                 $272.52       $257.14         ($15.38)
            CONNECTICUT
                                    $1,124.39     $1,108.83        ($15.56)
            VALLEY
            SAN FRANCISCO            $208.27       $191.80         ($16.47)
            APPALACHIAN              $575.33       $558.78         ($16.55)
            DETROIT                  $766.43       $747.41         ($19.02)



                                      15
Revenue Performance to Plan for                                             MS-WP-14-001
 Fiscal Years 2012 and 2013



                                                              FY 2013
                                                                             Difference
                                                                              Between
                                                Plan           Actual        Actual and
                     District                 Revenue         Revenue           Plan
            GATEWAY                              $1,028.02      $1,003.81        ($24.21)
            ARKANSAS                              $226.93        $200.19         ($26.74)
            GREATER BOSTON                        $622.73        $594.37         ($28.36)
            HOUSTON                               $542.63        $514.07         ($28.56)
            NEVADA-SIERRA                         $270.64        $239.33         ($31.31)
            RIO GRANDE                            $629.29        $589.63         ($39.67)
            WESTERN NEW YORK                      $318.56        $278.50         ($40.06)
            SOUTH JERSEY                          $870.29        $828.47         ($41.82)
            KENTUCKIANA                           $671.55        $625.24         ($46.32)
            PHILADELPHIA
                                                 $1,077.87      $1,024.07        ($53.80)
            METROPOLITAN
            LOS ANGELES                            $759.54       $695.20         ($64.34)
            Source: FPR data from the Accounting Data Mart.




                                                    16
Revenue Performance to Plan for                                                  MS-WP-14-001
 Fiscal Years 2012 and 2013



              Appendix E: Area Retail Revenue Performance, Fiscal Year 2013
                                       (in billions)15

                                                               FY 2013
                                                                          Difference
                                             Plan          Actual       Between Actual
                           Area            Revenue        Revenue          and Plan
                   PACIFIC                       $2.67          $2.58            $0.09
                   WESTERN                       $3.49          $3.42             $0.08
                   NORTHEAST                     $2.63          $2.60             $0.02
                   SOUTHERN                      $3.37          $3.36             $0.01
                   CAPITAL METRO                 $1.81          $1.82           ($0.01)
                   EASTERN                       $2.67          $2.69           ($0.02)
                   GREAT LAKES                   $2.04          $2.07           ($0.02)
                   Source: FPR data from the Accounting Data Mart.




15
     Ranked in descending order based on FY 2013 performance to plan.


                                                         17
Revenue Performance to Plan for                                                   MS-WP-14-001
 Fiscal Years 2012 and 2013



             Appendix F: District Retail Revenue Performance, Fiscal Year 2013
                                         (in millions)16

                                                                        FY 2013
                                                                                     Difference
                                                                                      Between
                                                      Plan               Actual      Actual and
                            District                Revenue             Revenue         Plan
                  SALT LAKE CITY                          $349.85          $395.84         $45.99
                  TRIBORO                                 $276.61          $320.48         $43.87
                  SANTA ANA                               $474.82          $502.94         $28.12
                  LOS ANGELES                             $348.73          $366.99         $18.27
                  SAN FRANCISCO                           $245.64          $260.83         $15.20
                  SAN DIEGO                               $365.87          $378.28         $12.41
                  SIERRA COASTAL                          $388.70          $401.01         $12.31
                  SUNCOAST                                $594.33          $604.40         $10.07
                  SEATTLE                                 $433.52          $441.53          $8.02
                  ARIZONA                                 $451.73          $458.60          $6.87
                  DALLAS                                  $278.24          $283.96          $5.72
                  ATLANTA                                 $334.84          $340.35          $5.51
                  BAY-VALLEY                              $324.59          $328.08          $3.48
                  OKLAHOMA                                $193.62          $196.95          $3.33
                  COLORADO/WYOMING                        $371.21          $374.44          $3.23
                  MID-AMERICA                             $238.60          $241.81          $3.21
                  SACRAMENTO                              $289.61          $292.64          $3.03
                  NORTHLAND                               $380.48          $383.20          $2.73
                  KENTUCKIANA                             $228.33          $231.05          $2.72
                  NEVADA-SIERRA                           $167.97          $170.62          $2.64
                  DETROIT                                 $307.50          $310.08          $2.58
                  CONNECTICUT
                                                          $392.16          $394.32           $2.16
                  VALLEY
                  PORTLAND                                $325.82          $327.85           $2.03
                  CENTRAL PLAINS                          $229.38          $230.73           $1.36
                  CENTRAL
                                                          $309.68          $311.04           $1.35
                  PENNSYLVANIA
                  GREATER SOUTH
                                                          $195.48          $196.80           $1.33
                  CAROLINA
                  DAKOTAS                                 $204.01          $205.33           $1.32

16
     Ranked in descending order based on FY 2013 performance to plan.


                                                        18
Revenue Performance to Plan for                          MS-WP-14-001
 Fiscal Years 2012 and 2013



                                               FY 2013
                                                            Difference
                                                             Between
                                    Plan        Actual      Actual and
                       District   Revenue      Revenue         Plan
              GULF ATLANTIC          $337.59      $338.56           $0.98
              ALASKA                  $69.06       $69.93           $0.87
              HAWKEYE                $193.73      $194.48           $0.75
              FORT WORTH             $210.53      $210.96           $0.42
              NORTHERN NEW
                                     $367.19      $367.47           $0.29
              JERSEY
              RIO GRANDE             $358.01      $357.83         ($0.18)
              LONG ISLAND            $215.94      $215.67         ($0.27)
              HOUSTON                $287.21      $286.79         ($0.42)
              LOUISIANA              $190.48      $189.87         ($0.61)
              NORTHERN NEW
                                     $262.68      $261.94         ($0.74)
              ENGLAND
              SOUTH FLORIDA          $433.32      $432.48         ($0.84)
              WESTERN NEW YORK       $186.25      $185.27         ($0.98)
              CHICAGO                $114.57      $113.56         ($1.01)
              CAPITAL                $173.00      $171.88         ($1.12)
              MID-CAROLINAS          $257.33      $256.13         ($1.20)
              GREATER MICHIGAN       $258.56      $257.21         ($1.35)
              RICHMOND               $212.58      $211.19         ($1.39)
              SOUTH JERSEY           $290.22      $288.79         ($1.42)
              MISSISSIPPI            $123.88      $122.40         ($1.49)
              HONOLULU               $127.75      $126.06         ($1.69)
              CENTRAL ILLINOIS       $304.71      $302.77         ($1.94)
              ALBANY                 $197.30      $195.20         ($2.10)
              ARKANSAS               $136.13      $134.01         ($2.12)
              NEW YORK               $209.08      $206.82         ($2.26)
              CARIBBEAN               $92.25       $89.61         ($2.64)
              CINCINNATI             $329.59      $326.84         ($2.75)
              BALTIMORE              $206.29      $203.51         ($2.78)
              TENNESSEE              $328.16      $325.22         ($2.94)
              PHILADELPHIA
                                     $245.67      $242.21         ($3.46)
              METROPOLITAN
              NORTHERN VIRGINIA      $187.72      $184.23         ($3.49)



                                    19
Revenue Performance to Plan for                                            MS-WP-14-001
 Fiscal Years 2012 and 2013



                                                                 FY 2013
                                                                              Difference
                                                                               Between
                                                  Plan            Actual      Actual and
                       District                 Revenue          Revenue         Plan
              ALABAMA                                $213.83        $210.01         ($3.83)
              WESTERN
                                                     $262.06        $257.27         ($4.80)
              PENNSYLVANIA
              NORTHERN OHIO                          $334.23        $329.31         ($4.92)
              WESTCHESTER                            $169.75        $164.70         ($5.04)
              GREATER BOSTON                         $376.06        $370.58         ($5.49)
              GATEWAY                                $306.13        $300.44         ($5.69)
              GREENSBORO                             $255.33        $249.25         ($6.08)
              GREATER INDIANA                        $300.64        $294.39         ($6.25)
              APPALACHIAN                            $175.73        $169.25         ($6.48)
              LAKELAND                               $473.83        $463.46        ($10.36)
               Source: FPR data from the Accounting Data Mart.




                                                    20
